                                   CLOSEOUT FOR M91070030
         This cam involves two allegations of misconduct in science against Dr-.the
 subject), a-itizen          who was a visiting postdoctoral fellow in the laboratory of Dr.-
t      h         e complainant) at the University o           f institution) from 1982 to 1984. The
 research in question was supported by the complainant's NSF Grant-                           entitled

           -
        , where he is currently a scientist at the!-fut~ints

         While in. the complainant's laboratory, the subject carried out two studies that are
alleged to contain fabricated or falsified data. The first shdv was vublished as a ~aw-




                                                (the 1985 paper).

Alleged Fabrication in the 1984 Paper

        In 1988 another researcher informed the complainant that he had obtained results in
disagreement with those in the 1984 paper. The complainant promptly sent a sample of the
compound analyzed in the complainant's laboratory to the other researcher. The other
researcher's results obtained with that sample also disagreed with those in the 1984 paper. The
complainant and the other researcher discovered a discrepancy between the data recorded in the
subject's lab notebook and the original computer printouts when the other researcher visited the
complainant's lab in 1990. Only then did the complainant write to the subject, alleging that
much of the data in the subject's notebook did not come from the subject's computer printouts,
and that no other computer printouts could have been the source of the data, because the log
book showed that no other measurements were made. The complainant requested that the
subject justify his numbers, and provide the necessary records. The subject replied that he did
not have the-charts                      underlying the published results, but that they could be
found in the complainant's laboratory.

        A professor at the institution conducted an inquiry for the complainant's department. The
professor concluded that the subject either "performed some undocumented operation on the 'raw
data,' or . . . he invented the 'analyzed data' directly." His "general feeling is that [an
undocumented operation] is more likely . . ." According to the professor,


                                                  Page I of 4                            M9 1070030
                              CLOSEOUT FOR M91070030

       n o decide between dishonesty and carelessness, it would probably be necessary
       to bring [the subject] to [the institution] so that he can study the records and
       explain exactly how he produced the reported results.

       The institution conducted an investigation without the subject present. The investigation
found that,

       p]ased on the facts presented to the panel, an independent analysis of the raw
       data by [the professor] and in the absence of any evidence to the contrary, the
       panel upheld the allegation that scientific misconduct did occur.

The panel's conclusion was based totally on the absence of computer printouts supporting the
published data. Although nominally incorporating the findings of the professor's inquiry, the
investigation report did not address the professor's analysis or present a new analysis of the
relevant data and materials. The investigation report nonetheless reached a conclusion contrary
to the professor's.

Alleged Falsification of Data in tbe 1985 Paper

       In March 1992, the complainant made a second allegation of misconduct against the
subject to the Associate Vice President for Research- and Development. He alleged that the
subject had falsified data in the 1985 paper by altering the data to make it fit a straight line. He
claimed to have all of the original records necessary to prove this. An inquiry was conducted
by a second professor at the institution. The professor noted that

       In [certain] printouts the . . .        listed in Table V [of the 1985 paper]
       appear ordered by temperature, which is different from their order in the paper,
       but with otherwise identical values.

The professor's subsequent examination of the data was "not exhaustive but rather in the nature
of a random spot check." He found that some of the published data corresponded to that in the
printouts, but some had been changed as much as 30% or even 45 %, apparently to make the
data fit a straight line with minimal scatter.

       The institution assembled a second investigation panel. The subject was not present at
the meeting of the investigation panel. The investigation report sets out no analysis of the data
relevant to the allegation, but rather states:

       The panel listened to a 30+ minute presentation from [the complainant], who
       provided further insight as to why and how he concluded that [the subject] had
       altered the experimental data. . . . [The professor] . . . next testified as to what

                                           Page 2 of 4                                 M9 1070030
                              CLOSEOUT FOR M91070030

       he had discovered during the several weeks he independently carried out an
       informal inquiry . . .

The panel could find no motive for the subject to alter the data to fit a straight line when the
original data was of greater interest and could provide "clues to the chemistry involved in the
system. " Nevertheless, it concluded that the subject

       furtively altered the data and . . . is also guilty of willful scientific deception and
       dishonesty. . . . Perhaps, [the subject's] absence, which raises questions as to
       whether he even cares, is, sadly, the loudest testimony of all in this case.

OIG's Review of the Institution's Inquiries and Iavestigations

       OIG reviewed the institution's inquiry reports and investigation reports and found that
they were contradictory and did not present sufficient supporting evidence or analysis to back
up their conclusions. OIG requested that the institution send copies of all data and analyses that
were conducted to reach the conclusion that the original and published data did not match, and
a composite graph showing the discrepancies between the original and published data. OIG also
requested copies of all communications from the subject, and correspondence from the
complainant to the subject.
                                                          -
         In response to OIG's request, the institution sent copies of some pages from the subject's
notebook, copies of some computer printouts, copies of some pages from the log book, and
copies of pages from a lab diary from the complainant. The institution provided no useful
guidance on how to interpret these materials, and no composite graph or other completed
analysis explaining how it reached its conclusions. Although the institution supplied a large
amount of material relating to both allegations, the materials are nevertheless incomplete, since
some of the records referred to in the inquiry and investigation reports were not sent by the
institution. Conversely, some of the data sent is not discussed in the inquiry or investigation
reports. Even though the complainant claimed that with regard to the second allegation, all
original printouts and notebook entries were available, the institution sent notebook pages with
no matching printouts. Furthermore, the only other "analysis" sent by the institution consisted
of handwritten entries by the complainant into a lab diary. It contained passages concerning the
allegations against the subject mixed with irrelevant passages dealing with other laboratory
business, and no analyses beyond those presented in the inquiry and investigation reports.

        The correspondence sent by the institution explained the subject's position. In regard to
the first allegation, the subject explained where the published data could be found in his
notebook, but did not provide information on the computer printouts from which the data might
have been derived. The subject stated, "I haven't the computer printouts, they should be in the
laboratory [at the institution]." The subject further admitted that, "I to admit that my notebooks

                                            Page 3 of 4                                 M9 1070030
                                CLOSEOUT FOR M91070030

and recording the results was very poorly [sic]." In regard to the second allegation, the subject
explained that

          The results . . . were checked and discussed at least three times a week. . . .
          After finishing the paper I was not able to recall the entire process of the
          calculations, let alone now after so many years.

        The subject claimed that letters sent by the institution often took months to reach him,
went to the wrong location, and left him little time to reply. He also explained that both he and
his daughter had serious health problems, Further, there were two reasons he could not come
to the meeting of the first investigation panel. "First one is financial difficulties and the second
one is still tragically situation with our daughter[.]" In regard to the second allegation, the
subject stated that, "I am convinced that whatever steps I took would not affect the course of the
matter. "

          OIG had an expert in the field review the material supplied by the institution. The expert
stated:

          Most documents supporting allegations are either incomplete or they have been
          presented in a sloppy fashion. . . . [qhere is no step-by-step, type-written
          explanation for deciphering this information. --Inshort, the [institution] expects
          NSF to extract useful information from a pile of poorly written reportstnotes by
          [the subject], [the complainant], or other members of this research group.

        OIG concluded that the institution had not performed a fair or adequate investigation into
these allegations. The institution did not explain the relevance of the material it supplied OIG
or present an adequate analysis of its conclusions. In cases like this OIG usually proceeds with
its own investigation to determine if action is needed to protect NSF interests. However, OIG
decided not to undertake an investigation in this case. The subject resides in a foreign country
and communications have proven extremely difficult. The research was performed 10-12 years
ago, key records are missing, and much of the existing data were indeciphemble, even to our
expert. In light of the fact that NSF m l y makes awards to foreign researchers, OIG believes
that the government's interest are not at risk, and that its limited resources should not be spent
on further examination of this case. Thus, OIG closed this case.

cc:       Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                             Page 4 of 4
